BBVA Credit Card & Security Agreement

RETAIL INSTALMENT AGREEMENT
(May Not Be Available to Residents of All States)
Thank you for choosing BBVA! This Agreement contains the current terms and conditions of your Account. Your Application, Card
Mailer, and any other document we provide you that indicates it is part of, or amends this Agreement, are also part of this
Agreement. Keep them for your records. Please read this Agreement, including the pricing information, carefully. A
“Definitions” section is at the end of this Agreement.

GETTING STARTED
ACCEPTANCE OF THIS AGREEMENT
Subject to applicable law, you accept this Agreement if you or someone authorized by you use the Account. We accepted this
Agreement in Alabama. This Agreement includes an arbitration section.
PROMISE TO PAY
You promise individually and jointly to pay us for all amounts due on your Account. This includes any illegal or internet/online
gambling transactions you make.
SECURITY AGREEMENT (Applicable only to Optimizer Card)
To have an Optimizer Card Account, we require you to also have a savings account with us. In this Agreement, we call this savings
account the “Collateral Account.” You give us a security interest in the Collateral Account. You also give us a security interest in all
additions to and all proceeds of the Collateral Account. The Collateral Account is held by us as security for your promise to pay
under this Agreement. You may not withdraw any funds from the Collateral Account. You may not give a security interest or transfer
any other interest in the Collateral Account for any reason. Any attempt to give a security interest or transfer any other interest in the
Collateral Account will be ineffective and void. We may provide special instructions and requirements for deposits to the Collateral
Account. If you do not follow those instructions or requirements, we will have no liability for any delay or failure in depositing any
funds to the Collateral Account. You may not close the Collateral Account until all amounts owed under this Agreement have been
fully paid and you no longer have any right to use your Account. If you are in default under this Agreement or your Account is closed
for any reason, we may, immediately and without giving you notice: (1) apply part or all of the funds in the Collateral Account to any
amount you owe under this Agreement; and (2) retain any funds in the Collateral Account for up to 60 days in order to cover any
transactions, fees or charges relating to use of the Account before it was closed. In the event of a conflict between the terms of this
Agreement and those of the Collateral Account agreement, the terms of this Agreement will apply.
CHANGING THIS AGREEMENT
The rates, fees, and terms of this Agreement may change from time to time. We may change any term to this Agreement
unless an applicable law says we may not. You may not change this Agreement unless we agree in writing. If required by law, we
will give you advance written notice and any right to reject the change(s).
NOTICE AND CONTACT INFORMATION
We will send statements and other notices to the address you give us. If you agree and as permitted by law, we may provide this
information electronically. You promise to tell us right away if that address or contact information changes. If you have a joint
Account, any one of you may give us any notice under this Agreement. If you give us different notices or make different requests,
we may pick which one to honor without telling any of you.
CONTACT US
Unless and until we tell you otherwise, contact us regarding your Account, or to request a service related to your Account, at: For
Optimizer, ClearPoints, and Personal Line of Credit Cards: 1-800-239-5175; For Signature and Select Cards: 1-866-681-0484; or for
any Cards at BBVA USA Card Center, P.O. Box 2210, Decatur, Alabama 35699-0001.

USING YOUR ACCOUNT
PERMITTED USES
You may use your Account for transactions, such as Purchases, Cash Advances, and Balance Transfers. You may not use it for any
illegal or Internet/online gambling transactions. We may issue you Checks to make Cash Advances. You may not use a Check to
pay any amount you owe us. We may make you special offers, such as reduced promotional interest rates. These offers may have
different terms. Except as we tell you in the offer, the rest of this Agreement will still apply. You may set up automatic billing with a
merchant. If your Account number, Card expiration date or other Account information changes, you authorize us to provide the
information to any such merchant at our discretion. You must contact the merchant directly if you wish to stop automatic billing.
AUTHORIZED USERS
You may request additional Cards for Authorized Users. You will be liable for any charges made by any Authorized User and
anyone else they allow to use your Account. This will be true even if you did not want, or agree to, the particular use. You must
notify us if you wish to cancel the authority of an Authorized User.
CREDIT AUTHORIZATIONS
Subject to applicable law, we may limit or not authorize a transaction for any reason. We will not be liable if we do so, or if (1) we
close your Account; (2) anyone refuses your Card, Check, or Account; (3) we stop (or do not stop) a payment on a Check. Also, we
will not be liable for goods or services you bought or leased using your Account.
CREDIT LIMITS
We will tell you your Account credit limit(s). We may give you different limits for different types of transactions. We may change any
of your limits at any time. We may delay increasing your available credit for up to ten (10) days after you make a payment.

F03-X959-3 rev 06/2019RB Z-MLA

For the Optimizer, ClearPoints, and Personal Line of Credit Cards, if the balance on your Account (or on any type of transaction)
goes over the credit limit, you must pay the amount that is over the limit right away.
For all other cards, if the balance on your Account (or on any type of transaction) goes over the credit limit, you must pay the
amount that is over the limit right as part of your next Minimum Payment Due.
For the Optimizer Card, you may increase your credit limit by making a deposit of $100 or more in the Collateral Account. For each
deposit you make, we automatically will increase your credit limit by 90% of your deposit. An increase to your credit limit will not
become effective until we have collected payment on each check or other items deposited into the Collateral Account. This may take
up to 30 days. You may not decrease your credit limit.
If you have told us that you want Overlimit Transactions on your Account and Overlimit fees are shown on your Card Mailer or
otherwise provided to you, we may charge you an Over-the-Credit Limit Fee. You may tell us you want (or do not want) Overlimit
Transactions at any time.

INTEREST
HOW WE CALCULATE INTEREST CHARGES
We calculate interest charges each billing cycle by calculating the daily balance for each type of balance, including: Purchases,
Cash Advances, Balance Transfers and any balances subject to a special offer. We start with the beginning balance for each day.
The beginning balance is the prior day’s daily balance plus any interest charge from the prior day. Then, we add new transactions,
debits and fees. Next, we subtract any new payments or credits. We also make any other appropriate adjustments, such as the
grace period on Purchases. This gives us the daily balance for that type of balance. We multiply the daily balance for each balance
type by its daily periodic rate. We do this for each day in the billing cycle. This gives us the interest charges for each balance type.
We add up all the daily interest charges. The sum is the total interest charge for the billing cycle. We may use mathematical
formulas or computer programs which produce equivalent results to calculate the daily balance, interest charges and related
amounts.
NOTE: This method of calculating interest results in charging interest on unpaid interest (also known as compounding
interest).
PAYING INTEREST
Except for transactions, fees or charges not subject to interest, we start charging interest as follows: (1) if a transaction, fee, or
interest charge occurs and is added to your Account during the same billing cycle, we start charging interest on the date it occurs; or
(2) if a transaction, fee, or interest charge occurs during a billing cycle and is added to your Account in a subsequent billing cycle,
we start charging interest from the first day of the billing cycle in which it is added to your Account. You can avoid paying interest
on Purchases as described below, but you cannot avoid paying interest on Cash Advances or Balance Transfers. If you
paid the entire balance for the previous billing cycle by its Payment Due Date (or it was zero or a credit balance), new Purchases
added to your Account during the current billing cycle will not be charged interest if they are paid by the current Payment Due Date.
We may continue to charge interest until you pay the full account balance.
INTEREST RATES
The interest rates that apply to your Account are shown on the Card Mailer and each billing statement. We divide each APR by 365
to get the daily periodic rate (DPR) used to calculate interest charges.

FEES
Subject to any limitation of applicable law, you agree to pay and we may charge the following fees in the amounts shown
on your Card Mailer or otherwise provided to you. The following fees may not apply to all accounts. Please review your
Card Mailer and pricing disclosures. Unless otherwise specified, these fees are included in the Purchase balance.
ANNUAL FEE
If you are charged an Annual Fee, the fee will be charged to your Account shortly after the time it is opened unless otherwise
indicated. For each year that your Account remains open, the fee will be charged during the same month that it was initially charged.
TRANSACTION FEES
The Cash Advance fee will be included in the Cash Advance balance. The Balance Transfer Fee will be included in the Balance
Transfer balance. The Foreign Transaction Fee will be included in either the Purchase or Cash Advance balance depending on the
transaction type. The Foreign Transaction Fee applies to each transaction made in a foreign currency, outside of the United States,
or with a foreign merchant, even if that transaction is made in U.S. dollars, including returns or refunds. If you make any transaction
in a foreign currency, we or the Payment Network will convert it to U.S. dollars. The Payment Network will use its own currency
conversion procedures in effect at that time. Unless a particular rate is required by law, the conversion rate will be no more than the
highest interbank rate from customary banking sources. The conversion rate used may differ from the conversion rate on the date
you made the transaction.
PENALTY FEES
The CFPB may adjust penalty fee amounts annually to reflect changes to the Consumer Price Index (CPI), and we may change
such fees to reflect the adjustments. We will not charge more than one penalty fee for a single event or transaction that violates
multiple terms of this Agreement.
Late Fee. If we do not receive at least the Minimum Payment Due by the Payment Due Date, we will charge you a Late Fee. This
fee will never exceed the Minimum Payment Due that was due immediately prior to the date on which the fee was assessed.
Over-the-Credit Limit Fee. If you have told us that you want Overlimit Transactions on your Account and Overlimit fees are shown
on your Card Mailer or otherwise provided to you and we authorize any Overlimit Transaction, we may charge you an Over-theCredit Limit Fee. This fee will never exceed the amount by which your Account goes over your credit limit during the billing cycle in
which the fee is assessed. We will charge the fee only once for any billing cycle, regardless of the number of Overlimit Transactions
F03-X959-3 rev 06/2019RB Z-MLA

during that cycle. If your Account balance remains over your credit limit due to the same Overlimit Transaction(s), we will charge the
fee only once for each of the next two billing cycles.
Returned Payment Fee. If you make a payment that is not honored by your financial institution or is returned unpaid for any reason,
we will charge you a Returned Payment Fee. We will charge this fee even if the payment is later honored or paid. This fee will never
exceed the Minimum Payment Due that was due immediately before the payment was returned.
OTHER FEES
Returned Check Fee. If we return a Check for any reason, we may charge you a Returned Check Fee. This fee will never exceed
the amount of the Check returned.
Stop Payment Fee. If you request a stop payment on a Check, we may charge you a fee for each request, whether or not we
actually stop payment and subject to applicable law. This fee will be included in a balance not subject to interest.
Expedited Delivery Fee. If you request and we arrange for expedited delivery of any Card or Checks to you (for example, by an
overnight delivery service), we may charge you a fee. The fee amount will be disclosed to you at the time of the request, and you
will have the opportunity to agree to the fee. This fee will be included in a balance not subject to interest.
Document Fee. We may charge you the reasonable cost of researching, compiling and otherwise providing you copies of sales
slips or Checks, duplicate copies of billing statements, or other account documentation that you request. There will be no charge for
any item you request in good faith in connection with the resolution of any disputed billing matter.
Transfer Fee. If you request us to deposit a Cash Advance directly in your checking account, and we honor your request, we may
charge a fee in addition to the Cash Advance Fee. This fee will be included in the Cash Advance balance.
Expedited Payment Fee. If you request us to expedite payment on your Account by debiting any deposit or other account you
designate, and we honor your request, we may charge you a fee. This fee will be included in the Cash Advance balance.
Skip Payment Fee. If we offer and you accept the option to skip any monthly payment and your Minimum Payment Due would have
been $200 or more, we may charge you a fee. This fee will be included in the Cash Advance balance.
Rate Reduction Fee. If a reduction in any interest rate, fee or other charge is offered by us and accepted by you, or requested by
you and honored by us, we may charge you a fee. We may charge this fee even if the reduction is only temporary or for a limited
time period. We will tell you about the fee orally or in writing at the item we offer or agree to the reduction. This fee will be included in
the Cash Advance balance.

PAYMENTS
STATEMENTS
We will send you a statement at the end of each billing cycle if applicable law requires. Read each statement as soon as you get it.
Tell us right away if you see any error or problem. Your statement will show important information about your Account, including the
New Balance, Minimum Payment Due, Payment Due Date and the Statement Date.
MINIMUM PAYMENT DUE
You may pay any or all of the balance on your Account at any time without incurring any additional charge for prepayment.
Each billing cycle, you must pay at least the Minimum Payment Due by the Payment Due Date.
For the Optimizer Card, your Minimum Payment Due will be the greater of: $10; or 5% of the New Balance, rounded up or down to
the nearest dollar plus past due amounts and any amount over your credit limit(s). However if the New Balance is less than $10, you
must pay the entire New Balance.
For the ClearPoints and Personal Line of Credit Cards, if all of your APRs are 23.49% or lower, your Minimum Payment Due will be
the greater of: $10; or 2% of the New Balance, rounded up or down to the nearest dollar plus past due amounts and any amount
over your credit limit(s). However, if the New Balance is less than $10, you must pay the entire New Balance. If any of your APRs is
over 23.49%, your Minimum Payment Due will be $15 plus any interest you owe for that billing cycle, any Cash Advance Fee, Rate
Reduction Fee, Expedited Payment Fee, Skip Payment Fee, and Foreign Transaction Fee that has been charged during that billing
cycle, any unpaid Minimum Payments Due from previous bills and any amount over your credit limit(s).
For the Signature and Select Cards, if all of your APRs are 23.49% or lower, your Minimum Payment Due will be the greater of: $10;
or 2% of the New Balance or the amount of your credit limit, whichever is less, rounded up or down to the nearest dollar plus past
due amounts and any amount over your credit limit(s). However, if the New Balance is less than $10, you must pay the entire New
Balance. If any of your APRs is over 23.49%, your Minimum Payment Due will be $15 plus any interest you owe for that billing cycle,
any Cash Advance Fee, Rate Reduction Fee, Expedited Payment Fee, Skip Payment Fee, and Foreign Transaction Fee that has
been charged during that billing cycle, any unpaid Minimum Payments Due from previous bills and any amount over your credit
limit(s).
For all cards, we may let you skip a payment. We will tell you when you can skip a payment. If you skip a payment, you will owe the
Skip Payment Fee and interest for the skipped billing cycle, you will lose any grace period that otherwise would apply, and you must
pay the regular Minimum Payment Due for the next billing cycle.
MAKING PAYMENTS
You must follow the payment instructions on your statement or otherwise provided. If we let you pay at one of our branches, we will
credit the payment as of the day we get it. If we let you pay by phone, online, mobile application or other means, we will tell you
when it will be credited. You must pay us in U.S. dollars. We do not accept cash through the mail. We can accept late payments,
partial payments or payments marked “payment in full” or with any other restrictive endorsement without losing any of our
rights under this Agreement.
HOW WE APPLY PAYMENTS

F03-X959-3 rev 06/2019RB Z-MLA

We apply your Minimum Payment Due to pay down balances on your Account in our discretion, unless applicable law says we may
not. We apply amounts you pay that exceed the Minimum Payment Due to balances with higher APRs before balances with lower
APRs.

ABOUT OUR RELATIONSHIP
LIABILITY FOR UNAUTHORIZED USE
If your Card is lost or stolen or you believe someone is using your Card without your permission, contact us immediately.
You will not be liable for any unauthorized use that occurs after you notify us. Subject to applicable law, you may be liable for
unauthorized use that occurs before your notice to us. Your liability, if any, will not exceed $50.
COMMUNICATIONS CONSENT AND MONITORING
You authorize us (and our affiliates, agents and contractors) to contact you via any means you have provided us. This includes
phone (including cell phone) calls and texting, as well as email, even if you are charged for it by your provider. If we need to contact
you for informational purposes, to service your Account or collect amounts you owe, we may contact you using an automated dialer
or using prerecorded messages. You agree that we (and our affiliates, agents and contractors) may monitor or record any
communications between you and us.
INFORMATION ABOUT YOU AND YOUR CREDIT
You authorize us to obtain and review your financial condition, credit report(s), employment, income, and related information and
documentation at any time and for any reason. You agree to help with this. We may provide information about you and your Account
to credit reporting agencies and others. We may provide information to credit reporting agencies and others about this Account in
the name of an Authorized User. If you think we have or have provided information that is incorrect, write to us and list the specific
information you believe is inaccurate.
CLOSING YOUR ACCOUNT
You may close your Account. Unless applicable law says we may not, we may close, suspend, or not renew your account or not
reissue your Card without notice. You must follow the closure requirements we tell you. You still have to pay all amounts you owe
us. If you are not in default when your Account is closed, you may pay off the balance under the terms of this Agreement that apply
at that time.
DEFAULT
You are in default if:
•
You file a bankruptcy petition or have a bankruptcy petition filed against you;
•
We have reasonable belief that you are unable or unwilling to repay your obligations to us;
•
You die, become legally incompetent or go to jail;
•
You lose your Card or Checks (including if they are stolen);
•
We find you no longer qualify for any APR or credit limit then in effect on your Account; or
•
You fail to comply with the terms of this Agreement or any Agreement with us or an Affiliate, including failing to make a
payment when due, exceeding your credit limit (for the Optimizer, ClearPoints and Personal Line of Credit Cards only),
using your Card or Account for an illegal transaction, or giving us false or incomplete credit information, signatures, or
material representations.
If you are in default, we may (1) suspend or terminate your credit privileges, (2) close your Account and/or (3) declare the entire
balance of your Account immediately due and payable without notice.
COLLECTION COSTS
We may charge you for costs we have to pay to collect what you owe after default. These costs may include reasonable fees to
attorneys who are not our paid employees. We will not charge you for our collection costs if you owe us $300 or less or to the extent
an applicable law says we may not.

OTHER IMPORTANT INFORMATION
GOVERNING LAW
This Agreement is governed by applicable federal law and by Alabama law, without regard to its conflicts of law
provisions.
OUR RIGHTS
We may delay exercising or not exercise any rights under this Agreement without losing or waiving any of them.
ASSIGNMENT
We may sell, assign or transfer your Account, this Agreement and our rights or duties under this Agreement or any portion of it
without notice to you. You may not sell, assign or transfer your Account or any of your rights or duties under this Agreement without
first obtaining our prior written consent.
SEVERABILITY
If any part of this Agreement is found to be invalid, the rest of it will remain in effect. It is not the intention of the parties that anything
in this Agreement should result in the assessment (charge, collection, or receipt) of interest, fees or charges in excess of those
permitted by applicable law. If any interest, fee or charge assessed under this Agreement is finally determined to be in excess of
that permitted by applicable law, the excess amount will be applied to reduce the outstanding balance on your Account or, if there is
no outstanding balance, will be refunded to you.
STATE SPECIFIC DISCLOSURES
Maryland Residents: You have the right under Maryland Commercial Law Code Section 12-510 to receive an answer to a written
inquiry concerning the status of your Account. Finance charges will be imposed on the outstanding balances from month to month in
amounts or at rates not in excess of those permitted by law. New Jersey Residents: Because certain provisions of this Agreement
F03-X959-3 rev 06/2019RB Z-MLA

are subject to applicable law, they may be void, unenforceable or inapplicable in some jurisdictions. None of these provisions,
however, is void, unenforceable or inapplicable in New Jersey.
MILITARY LENDING ACT
Notwithstanding any other provision of this Agreement, if you are a “covered borrower” under the Military Lending Act, as defined in
32 CFR § 232.3(g), the arbitration provisions in this Agreement shall not apply to you. Furthermore, nothing in this Agreement shall
be construed as applying to a covered borrower to the extent inconsistent with the Military Lending Act.

DISPUTE RESOLUTION
ARBITRATION
Either you or we may ask to settle disputes by arbitration. Arbitration is a way of working out disputes without going to court. If you
or we ask for arbitration, we would all meet with a person called an arbitrator. An arbitrator is like a referee or a judge. The arbitrator
will listen to what you and we have to say. The arbitrator will decide who is right. The arbitrator’s decision is called an award. The
party who wins the award can take it to any court that could have heard the dispute and get an official judgment. Please read the
rest of this section carefully. It explains how arbitration works.
Some Legal Rights May Not Be Available in Arbitration: After any party asks for arbitration of a dispute, neither you nor we
can ask a court to hear that dispute. There will be no jury trial of that dispute. You cannot be part of any class action
relating to that dispute. The right to get information from each other and other procedures may be more limited in
arbitration than in court. With a few limited exceptions, the arbitrator’s award will be final and unchangeable. Other rights
that you or we would have in a court also may not be available in arbitration.
WHAT DISPUTES ARE COVERED
Any dispute that arises from or relates to this Agreement, your Account and any transaction involving the Account will be settled by
arbitration unless it is described below in “What Disputes Are Not Covered.” It doesn’t matter whether the dispute is based on
contract, fraud, tort, intentional tort, statute, regulation, constitution, common law, equity or otherwise. It also doesn’t matter when
the dispute began (whether before this Agreement, now or in the future). This arbitration provision will continue to apply after this
Agreement ends and/or after you or we close the Account.
WHAT DISPUTES ARE NOT COVERED
This arbitration provision does not cover any dispute: (1) That you or we could take to a small claims court, which usually limits its
cases based on the amount of the claim; or (2) about the parts of this arbitration provision that prohibit class disputes.
NO CLASS DISPUTES
YOU CANNOT JOIN TOGETHER IN A DISPUTE WITH ANYONE OTHER THAN PEOPLE WHO USE YOUR ACCOUNT. EVEN
IF OTHER PEOPLE HAVE DISPUTES SIMILAR TO A DISPUTE THAT YOU OR WE ASK TO ARBITRATE, THOSE PEOPLE
AND THEIR DISPUTES CANNOT BE PART OF ANY ARBITRATION BETWEEN YOU AND US. YOU CANNOT ARBITRATE
ANY DISPUTE ON A CLASS ACTION, PRIVATE ATTORNEY GENERAL OR OTHER REPRESENTATIVE BASIS. Only a court,
and not an arbitrator, may decide whether this provision prohibiting class disputes can be enforced.
WHO WILL ARBITRATE
The American Arbitration Association (“AAA”) or JAMS ADR (“JAMS”) may arbitrate any dispute, or you and we may agree upon a
different arbitrator. For more information about arbitration, contact the AAA (www.adr.org or 1-800-778- 7879) or JAMS
(www.jamsadr.com or 1-800-352-5267). If for any reason the AAA or JAMS is unable or unwilling to arbitrate, or you and we cannot
agree on an arbitrator, we will use another national or regional arbitration group. The number of arbitrators will depend on the total
dollar amount of all disputes by both you and us. If the total is $250,000 or less, one arbitrator will hear the dispute(s). If the total is
over $250,000, three arbitrators will hear the dispute(s). Each arbitrator must be an active member in good standing of the bar for
any state in the continental United States, and either: (a) actively engaged in the practice of law for at least 5 years or (b) a retired
judge.
WHAT RULES APPLY
The arbitration of any dispute will be conducted according to the rules of the arbitrator (“Rules”). If an arbitrator other than the AAA is
chosen, the Rules of the AAA will be applied to any circumstance that is not addressed by the Rules of the chosen arbitrator. If the
total of all disputes is $250,000 or less, we will use any expedited procedures in the Rules. If this Agreement and the Rules say
something different, we will follow this Agreement and not the Rules.
HOW TO START ARBITRATION
Either you or we may start an arbitration by giving written notice to the other party. At a minimum, this notice must describe the
subject of the dispute and the result requested in arbitration by the party giving the notice. If you ask us to arbitrate, you can choose
the AAA or JAMS, or suggest another national or regional arbitration group to arbitrate the dispute. If we ask you to arbitrate, we will
give you 10 days to choose the AAA or JAMS, or to suggest another national or regional arbitration group. In either case, if you
suggest an alternative to the AAA and JAMS, we will work with you to determine if you and we can agree on a different group or
arbitrator. If you and we are unable to agree, the arbitration will be conducted by the AAA or, if the AAA is not available, by a similar
arbitration group. The party asking for arbitration must file a notice with the arbitration group following the Rules in effect at that time.
WHEN A PARTY MAY ASK FOR ARBITRATION
You or we may ask for arbitration before or after a lawsuit has been filed. You or we must ask for arbitration within the statute of
limitations that would apply to the same dispute in court. If it is too late to resolve the dispute in court, it is also too late to resolve it in
arbitration.
WHAT THE ARBITRATOR(S) MUST DO
Each arbitrator must:

F03-X959-3 rev 06/2019RB Z-MLA

o

o
o
o
o
o

Limit discovery to information that is directly relevant to the dispute and is not considered confidential or otherwise
protected from being made public. Discovery is the process by which you and we ask each other for information about the
dispute;
Make decisions and awards based on the evidence and applicable substantive law and the rules of evidence used in
federal courts;
Make decisions and awards only with respect to claims made by or against you individually;
Give a brief written explanation of the basis for the award upon request of either party; and
Make specific findings of fact and conclusions of law to support any award greater than $25,000.
Not make any award that would require you and us to continue any relationship we may have under this Agreement or
otherwise.

WHO PAYS FOR ARBITRATION
There will be costs for arbitration. Contact the AAA or other arbitration group to find out what the arbitration charges will be. You
may have to pay some of the arbitration charges unless this Agreement, an applicable law or the Rules say we must pay. If the total
dollar amount of all disputes is $50,000 or less, we will pay that portion of the arbitration filing fee that is more than the cost of filing
a lawsuit in the federal court where you live. You can ask us to pay some or all of the other arbitration charges you have to pay, but
we don’t promise to do as you ask. At the end of the arbitration, the arbitrator(s) will decide who has to pay for any arbitration
charges that are greater than those we agreed to pay. The arbitrator(s) also may order us to pay some or all of your attorneys,
expert and witness fees. Unless ordered otherwise by the arbitrator(s), each of us must pay for its own attorneys, expert and witness
fees, no matter who wins.
WHERE WILL ARBITRATION TAKE PLACE
Any arbitration will take place in the federal judicial district near your home. Or, you and we could agree that arbitration will take
place somewhere else.
WHAT LAW APPLIES
This arbitration provision is made pursuant to a transaction involving interstate commerce. The Federal Arbitration Act will apply to
the construction, interpretation and enforceability of this arbitration provision despite any other choice of law provision in this
Agreement.
OTHER RIGHTS AND REMEDIES
Nothing in this arbitration provision will limit certain other rights you or we may have. This means that you or we could, for example:
o
Get an injunction, which is a court order to stop someone from doing something; or
o
File an interpleader action, which is a type of lawsuit used to decide who owns property that more than one person claims
to own.
If you or we do any of these things or take part in any other court case, it does not affect your or our rights under this arbitration
provision.
WHAT HAPPENS IF PART OR ALL OF THIS ARBITRATION PROVISION CANNOT BE ENFORCED
Only a court and not an arbitrator can determine if any part of this arbitration provision cannot be enforced. If a court with proper
jurisdiction says that any part of the “No Class Disputes” subsection above (which prohibits arbitration of class disputes) cannot be
enforced, then none of the arbitration section in this Agreement will apply, and this section will be considered deleted from the
Agreement. If a court with proper jurisdiction says that any other part of this arbitration provision cannot be enforced, then the rest of
this arbitration subsection still will apply, including the “No Class Disputes” subsection above.
Waiver Of Jury Trial: This provision limits your rights to a jury trial. You should review this section carefully. If you and we
have any dispute related to this Agreement, your Account, or any transactions involving your Account and (i) neither you
nor we seek to compel arbitration of the dispute, or (ii) some or all of the arbitration section is unenforceable and the
dispute will be resolved in court, then you and we agree voluntarily and knowingly to waive any right each may have to a
jury trial to the fullest extent permitted by law.
ATTORNEYS’ FEES
In any action between you and us in court, the prevailing party will be entitled to receive from the other party an amount equal to the
reasonable attorneys’ fees the prevailing party incurred in bringing or defending the court action.

DEFINITIONS
Account – Your arrangement with us for credit and other services under this Agreement.
Agreement – The current terms and conditions of your Account as contained within this document, your Application, your Card
Mailer, any other document we provide you that indicates it is part of, or amends the terms and conditions of your Account.
Application – The application or solicitation you signed, submitted, or otherwise gave us to ask for the Account. An application
could be written, electronic, or as otherwise permitted by law.
Authorized User – Any person you authorize to use your Account or a Card, whether you notify us or not.
Balance Transfers – A balance from another creditor paid directly by us and transferred to your Account. If we approve your
request, we will pay the other creditor directly. Balance Transfers are Cash Advances, except that the APR for Purchases (and not
the APR for Cash Advances) will apply to Balance Transfers.
Cash Advances – The use of your Account to obtain cash or other advances:
•
From us or any participating financial institution or automated teller machine (ATM);
•
By using a Check;
•
By purchasing items that can be traded right away for cash, such as wire transfers, money orders, traveler’s checks,
lottery tickets or casino chips;

F03-X959-3 rev 06/2019RB Z-MLA

•
•

By placing bets or wagers (if legal) or to make tax or other similar payments; or
By getting an advance deposited to a BBVA checking account if you are enrolled in an overdraft protection program
under a separate agreement with us.

Card – Any access device for your Account we give you or an Authorized User to obtain credit, including physical cards, Account
numbers, Checks and electronic form factors or cryptologic keys.
Card Mailer – Account documentation containing your Card, your initial or subsequent credit limit, Account number(s), account
opening disclosures and pricing information, or other information about the terms and conditions of your Account.
Check – Any check we send to you to access your Account. Checks are Cash Advances.
Purchases – the use of your Account to purchase or lease goods or services from participating merchants.
New Balance – The unpaid balance at the end of the billing cycle.
Minimum Payment Due – Minimum amount of your payment.
Payment Due Date – The date your next payment is due.
Payment Network – Visa, MasterCard, American Express, Discover, and their respective payment systems, or any other payment
system that is enabled on, or otherwise specified for, your Account.
Statement Date – The date of the statement.
We, us, and our – BBVA USA and anyone to whom we give or sell your Account. BBVA is a trade name of BBVA USA, a member
of the BBVA Group.
You, your, and yours – You and any other person(s) who are contractually liable under this Agreement, including joint applicants
and joint Account holders.
NOTICE TO THE BUYER - DO NOT SIGN THIS CREDIT AGREEMENT BEFORE YOU READ IT OR IF IT CONTAINS BLANK
SPACES. YOU ARE ENTITLED TO A COPY OF THIS AGREEMENT. KEEP IT TO PROTECT YOUR LEGAL RIGHTS.
Signatures:
You: Any handwritten, electronic or digital signature provided by you or any person whom you allow to use the Account on any
document in connection with opening or using your Account serves as your signature on this Agreement.
Bank: We have signed this Agreement as follows:

A. Smith
Vice President
BBVA USA
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at the payment address shown on your bill.
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect any amount in question, or report you as delinquent on that amount.
•
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.

F03-X959-3 rev 06/2019RB Z-MLA

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount that you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question, even if
your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check
that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the payment address shown
on your bill.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

F03-X959-3 rev 06/2019RB Z-MLA

BBVA ClearPoints Credit Card Account Pricing Information as of March 31, 2021.
This pricing information is accurate as of the date listed above, but may have changed after that date. You can
always find out the most current pricing information by contacting us at: BBVA USA, P.O. Box 2210, Decatur, AL
35699 or 1-800-239-5175.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime* + 7.99%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Prime* + 7.99%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Prime* + 18.99%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

Minimum Interest Charge

If you are charged interest on purchases, the charge will be no less than $1.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore

Fees
Transaction Fees
• Cash Advance
• Balance Transfer
• Foreign Transaction

Either $10 or 4% of the amount of each cash advance, whichever is greater
Either $10 or 4% of the amount of each transfer, whichever is greater
3% of each transaction in U.S. dollars

Penalty Fees
• Late Payment
• Returned Payment

Up to $37
Up to $20

How We Will Calculate Your Balance: We use a method called “daily balance.” See account agreement
for more details.
*For each billing cycle, we use the Prime Rate from The Wall Street Journal two business days before the
Statement Date for that billing cycle. Your APRs may increase if the Prime Rate increases. If your APRs increase,
the amount of interest you will owe and the Minimum Payment Due may increase.
BBVA is a trade name of BBVA USA, a member of the BBVA Group.

F03-X959-3

